OFFICE OF AUDIT
FORT WORTH REGION
FORT WORTH, TEXAS




              Weststar Mortgage Corporation
                    Albuquerque, NM

   Did Not Comply With HUD FHA Single Family
        Requirements for 10 Loans Reviewed




AUDIT REPORT NUMBER 2012-FW-1012              August 2, 2012
                                                        Issue Date: August 2, 2012

                                                        Audit Report Number: 2012-FW-1012


TO:            Charles S. Coulter
               Deputy Assistant Secretary for Single Family Housing, HU

               //signed//
FROM:          Gerald R. Kirkland
               Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT:       Weststar Mortgage Corporation, Albuquerque, NM, Did Not Comply With HUD
                FHA Single Family Requirements for 10 Loans Reviewed


       Attached is the U. S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of Weststar Mortgage, LLP.

        HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

        The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post
its publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

        If you have any questions or comments about this report, please do not hesitate to call me
at (817) 978-9309.
                                          August 2, 2012
                                          Weststar Mortgage Corporation, Albuquerque, NM, Did Not
                                          Comply With HUD FHA Single Family Requirements for 10
                                          Loans Reviewed



Highlights
Audit Report 2012-FW-1012


 What We Audited and Why                      What We Found

We audited Weststar Mortgage              Weststar violated HUD FHA underwriting
Corporation, a Federal Housing            requirements for 10 loan originations reviewed. Six of
Administration (FHA) nonsupervised        the loans had significant violations and did not qualify
direct endorsement lender located in      for FHA insurance. Further, Weststar entered
Albuquerque, NM. We selected              erroneous data into HUD’s Neighborhood Watch
Weststar for review based on a risk       system. 1 This noncompliance occurred because
assessment of lenders in New Mexico.      Weststar misunderstood some requirements and
Our objective was to determine whether    ignored other requirements. As a result, HUD FHA
Weststar complied with U. S.              incurred losses of $554,130 for six loans that were
Department of Housing and Urban           ineligible for FHA insurance, and the Neighborhood
Development (HUD) and FHA loan            Watch system contained errouneous data. Further,
origination requirements for loans on     Weststar allowed employees to sign documents for an
which the borrowers defaulted and FHA     underwriter and a loan officer. Weststar had updated
paid claims between 2009 and 2011.        its policies and procedures as of May 2010. If
                                          followed, the updated policies and procedures should
 What We Recommend                        address the underwriting deficiencies identified in our
                                          review.
We recommend that the Deputy
Assistant Secretary for Housing require
Weststar to (1) reimburse the FHA
insurance fund $554,130 for losses
incurred on six loans that were
ineligible for FHA insurance; (2)
correct the data in Neighborhood Watch
for two loans; (3) implement procedures
to ensure that it enters correct
information into Neighborhood Watch;
and (4) discontinue the practice of
allowing employees to sign documents
for underwriters and loan officers.


                                          1
                                               Neighborhood Watch is Web-based software that displays
                                               loan performance data for FHA insured single family loans.
                                               The system is designed to highlight exceptions so that
                                               potential problems are readily identifiable.
                          TABLE OF CONTENTS

Background and Objective                                                   3

Results of Audit
      Finding: Weststar Did Not Follow HUD FHA Requirements for 10 Loans   4
               Reviewed

Scope and Methodology                                                      11

Internal Controls                                                          12

Appendixes
   A. Schedule of Questioned Costs                                         13
   B. Auditee Comments and OIG’s Evaluation                                14
   C. Case Narratives                                                      36




                                          2
                          BACKGROUND AND OBJECTIVE

Weststar Mortgage Corporation is a nonsupervised direct endorsment lender with in-house
underwriting that does business as Weststar Loan Company in 10 states. Weststar primarily
originates conforming, conventional, Federal Housing Administration (FHA), U. S. Department of
Veterans Affairs, and U. S. Department of Agriculture mortgage loans. As of October 15, 2011, it
had $90 million in total production with 70 percent being FHA loans.

The direct endorsement program simplified the process for obtaining FHA mortgage insurance by
allowing lenders to underwrite and close the mortgage loan without prior U. S. Department of
Housing and Urban Development (HUD) review or approval. Weststar was responsible for
complying with all applicable HUD FHA regulations and was required to evaluate the borrower’s
ability and willingness to repay the mortgage debt. Weststar was protected against default by
FHA’s Mutual Mortgage Insurance Fund, which is sustained by borrower premiums. FHA’s
mortgage insurance programs help low- and moderate-income families become homeowners by
lowering some of the costs of their mortgage loans. FHA mortgage insurance also encourages
lenders to approve mortgages for otherwise creditworthy borrowers that might not be able to meet
conventional underwriting requirements by protecting the lender against default.

Between January 1, 2009, and June 30, 2011, borrowers defaulted 2 on 58 Weststar-originated FHA
mortgages with original mortgage values 3 totaling more than $6.7 million. HUD FHA incurred
losses 4 totaling more than $2.4 million upon resale of the properties.

HUD’s Quality Assurance Division reviewed Weststar’s performance in 2007 and found 11 types
of violations of HUD FHA requirements. Some of the violations included failing to comply with
the provisions of the Real Estate Settlement Procedures Act, failing to properly calculate income,
and allowing documents to pass through the hands of interested third parties. In 2011, the Quality
Assurance Division performed another review and found only two types of violations of HUD FHA
requirements. The violations included seller or dealer contributions exceeding limits and missing
documentation.

Our objective was to determine whether Weststar complied with HUD and FHA loan origination
requirements for loans on which the borrowers defaulted and FHA paid claims between 2009 and
2011.




2
    HUD defines default as the borrower’s failing to make any payment or perform any other obligation under the
    mortgage and such failure continues for a period of 30 days.
3
    Original mortgage value is the actual insured amount of the mortgage as determined by statutory limitations,
    minimum requirements, loan-to-value ratio limitations, and the original requested amount plus any unpaid
    portions of mortgage insurance premiums if applicable.
4
    The profit or loss amount is the calculated amount of profit or loss resulting from the sale of a HUD property.

                                                         3
                                 RESULTS OF AUDIT

Finding: Weststar Did Not Follow HUD FHA Requirements for 10
Loans Reviewed
Weststar did not follow HUD FHA requirements for 10 loans reviewed. While all 10 loans
contained underwriting deficiencies, six contained significant deficiencies and did not qualify for
FHA insurance. Weststar originated the deficient loans because it misunderstood some
requirements and ignored other requirements. As a result, HUD FHA incurred losses of
$554,130.


 Weststar Did Not Follow HUD
 FHA Requirements for
 Originating and Documenting
 Loans


               Each of the 10 Weststar loans reviewed had underwriting deficiencies as shown in
               table 1. Appendix C contains case narratives describing the underwriting
               deficiencies for the six loans with significant deficiencies. The six loans were
               originated during 2007 and 2008.

     Table 1: Summary of loan deficiencies
                                     Types of deficiencies
                                                                                Indemnification
                       Income     Credit    Documentation Miscellaneous             amount
       FHA case #
      491-9062802         x          x               x               x                 $72,887
      492-8020459         x          x               x               x                 $80,472
      491-9194756         x                          x                                $145,626
      491-8985420                    x               x               x                $103,752
      492-7865955                                    x               x
      491-8959489                                    x                                  $61,272
      494-3385769                                    x
      492-7767217                                    x                                  $90,121
      361-3081450                    x               x
      491-9122005                                    x               x
         Total                                                                         $554,130




                                                 4
Three Loans Had Income
Deficiencies

           Three of the 10 loans had income deficiencies. Two loans improperly included
           overtime in the income calculation. One loan had unsupported income because
           documents were incomplete.

           For FHA loans 491-9062802 and 491-9194756, Weststar incorrectly calculated
           income using unsupported overtime. It did not obtain support for 2 years worth of
           overtime and develop an average of overtime for the past 2 years as required.
           Further, it did not document its reason for using overtime in the income
           calculation. HUD Handbook 4155.1, REV-5, paragraph 2.6, requires the lender
           to verify the borrower’s employment for the most recent 2 full years. Paragraph
           2.7.A of the Handbook allows both overtime and bonus income to be used to
           qualify if the borrower has received such income for the past 2 years and it is
           likely to continue. There was no such evidence in the file.

           For FHA loan 492-8020459, the underwriter relied on incomplete income
           documents, including check stubs without the employer’s information or check
           numbers. The underwriter should have resolved these discrepancies. Paragraph 3
           of the Handbook requires the lender to ask sufficient questions to elicit a complete
           picture of the borrower’s financial situation, source of funds for the transaction,
           and the intended use of the property. It further requires all information to be
           verified and documented.

Four Loans Had Credit and
Processing Deficiencies


           Four loans had credit and processing deficiencies. Two loans were not
           downgraded to manual underwriting, and two loans with credit discrepancies
           were not properly justified, documented, or explained.

           For FHA loans 491-9062802 and 491-8985420, Weststar should have processed
           the loans manually based on derogatory and delinquent credit items found on the
           credit reports, such as delinquent property taxes, a repossession, and four of five
           disputed consumer accounts on the credit report within a 2-year period of the
           loan’s approval. Technology Open to Approved Lenders (TOTAL) Scorecard
           guidelines require an underwriter to conduct a manual review when a borrower’s
           credit report reveals that the borrower disputed credit accounts or public records.
           The underwriter did not downgrade the loans, and there was no indication in the
           files that the underwriter reviewed the disputed collection accounts as required.

           For FHA loan 492-8020459, the underwriter did not adequately analyze the
           borrower’s overall pattern of credit behavior. The borrower had two unexplained

                                             5
          collection accounts on the credit report within a 2-year period of the loan’s
          approval. Paragraph 2.3.C of the Handbook requires court-ordered judgments to
          be paid off before the mortgage loan is eligible for FHA insurance endorsement.
          It further requires the borrower to explain in writing all collections and
          judgments.

          For FHA loan 361-3081450, the credit report in the file was not the same credit
          report used to qualify the borrower. The credit identification number on the credit
          report in the HUD file did not match the credit identification number listed on the
          Federal National Mortgage Association’s underwriting findings. This
          discrepancy may not have made the loan ineligible, but it demonstrated an
          inconsistency in file documentation. Paragraph 3.1 of the Handbook requires the
          application package to contain all documentation supporting the lender’s decision
          to approve the mortgage loan. When standard documentation does not provide
          enough information to support this decision, the lender must provide additional
          explanatory statements, consistent with other information in the application, to
          clarify or supplement the documentation submitted by the borrower.

Ten Loans Had Documentation
Deficiencies


          All ten loans had various document deficiencies including lack of documentation
          for (1) gift wire transfers, (2) documents handled by the builder and transmitted
          through the builder’s fax machine, and (3) a sales contract dated after the
          appraisal. Further, documents in the lender’s files did not match documents
          submitted to HUD in all 10 files, and other Weststar employees signed documents
          for the underwriter and loan officer in six files. Some of the 10 loans had
          multiple document deficiencies.

          For FHA loan 492-7767217, the gift letter was missing from both HUD’s and the
          lender’s files. Paragraph 2.10.C of the Handbook requires the lender to document
          gift funds by obtaining a gift letter, signed by the donor and borrower, that
          specifies the dollar amount of the gift; states that no repayment is required; shows
          the donor’s name, address, and telephone number; and states the nature of the
          donor’s relationship to the borrower. Further, the Weststar file contained an
          inconsistency in the amount of the gift funds. The HUD-1 settlement statement
          showed a gift of $9,257, and the mortgage credit analysis worksheet showed the
          gift as $10,235.

          Weststar accepted employment and income documents that were handled by the
          builder and transmitted through the builder’s fax machine for FHA loan
          491-8959489, Paragraph 3.1 of the Handbook prohibits lenders from accepting or
          using documents relating to the credit, employment, or income of borrowers when
          those documents are handled by or transmitted from or through interested third



                                           6
           parties (for example, real estate agents, builders, sellers) or by using their
           equipment.

           The underwriter did not ensure that both borrower’s and coborrower’s final
           applications for FHA loan 491-8959489 were submitted to HUD and copies were
           kept in the lender’s files. Paragraph 3 of the Handbook requires the lender to ask
           sufficient questions to elicit a complete picture of the borrower’s financial
           situation, source of funds for the transaction, and the intended use of the property
           and to verify and document the information. It further requires the lender to
           verify and document the identity of the loan applicant(s). The loan file did not
           contain the borrower’s final application, and the lender did not provide a complete
           picture of the borrower’s financial position.

           For FHA loans 491-8985420 and 492-7865955, Weststar did not document the
           transfer of gift funds from the donor to the borrower and keep the documentation
           in its mortgage loan application binder as required by paragraph 2.10.C of the
           Handbook.

           The sales contract for FHA loan 361-3081450 was dated after the appraisal.
           Weststar’s staff stated that the sales contract was misdated.

           For FHA loans 491-8959489, 492-7865955, 494-3385769, 492-7767217,
           361-3081450, and 491-9122005, the underwriter’s and loan officer’s signatures
           were written by other persons. Weststar acknowledged obvious differences and
           said that other Weststar employees were allowed to sign the underwriter’s or loan
           officer’s names when they were in a hurry. This practice represented a serious
           internal control weakness.

           For all 10 loans, there were differences between the documents in the HUD files
           and the documents in Weststar’s files. HUD Handbook 4000.2, REV-3,
           paragraph 5.4, requires lenders to prepare and submit a uniform case binder to
           HUD. The case binder must be purchased from private sources, meet FHA
           specifications, and contain documents arranged as prescribed by FHA.

Five Loans Had Miscellaneous
Deficiencies

           Three loans had TOTAL Scorecard deficiencies, including excessive submissions
           and erroneous database entries.

           Weststar submitted FHA loan 491-9062802 to TOTAL Scorecard 37 times and
           used the 20th submission for approval. TOTAL Scorecard flagged the loan for the
           excessive submissions and recommended that the underwriter review the
           application for accuracy. For FHA loans 492-7865955 and 491-9122005,
           Weststar incorrectly entered two TOTAL Scorecard-approved FHA loans into

                                              7
                 HUD’s Neighborhood Watch system as manually underwritten. Weststar said the
                 errors were due to a technical problem when submitting the file.

                 Three of the 10 loans, including loan 491-9062802 that was submitted 37 times,
                 contained other miscellaneous errors.

                 For FHA loan 492-8020459, Weststar did not properly document the source of
                 funds or confirm the borrower’s bank account when the borrower stopped direct
                 deposits. Paragraph 2.10.B of the Handbook requires a verification of deposit and
                 allows the verification, along with the most recent bank statement, to be used to
                 verify savings and checking accounts. If there is a large increase in an account or
                 the account was opened recently, the lender must obtain a credible explanation of
                 the source of those funds. For this loan, Weststar did not confirm, resolve, or
                 document several items including

                 •    The borrower did not have a bank account, but his payroll records showed that
                      his checks were being direct deposited. He opened a checking account on the
                      advice of the lender, and his direct deposits stopped. There was no indication
                      of where the payroll payments were going or the source of the funds used to
                      open the account.

                 •    Housing obligation information was inconsistent. The borrower stated that he
                      had been living in a travel trailer on family property for the past 4 years, but
                      his loan application showed that he had been renting an apartment for the past
                      3 years. Paragraph 2.3.A of the Handbook requires the lender to determine
                      the borrower’s payment history of housing obligations through either the
                      credit report, verification of rent directly from the landlord (with no identity of
                      interest with the borrower) or verification of mortgage directly from the
                      mortgage servicer, or canceled checks covering the most recent 12-month
                      period.

                 •    The borrower’s downpayment of $500 in earnest money, which was paid
                      before the loan closing, was not included on the settlement statement as
                      required by the Real Estate Settlement Procedures Act. The Real Estate
                      Settlement Procedures Act requires the settlement statement to reflect any
                      amounts paid against the sales price before settlement. 5

                 •    There were significant differences between the lender case file and the file
                      that the lender submitted to HUD. For example, the HUD file had a copy of
                      the gift letter, which was signed and dated, while the lender’s copy was
                      neither signed nor dated. In another example, the HUD file contained several
                      key documents that the lender file did not contain. The HUD file contained a
                      nonendorsement notice, which showed that the mortgage amount exceeded the
                      maximum allowed and a reduction of principal was required before HUD’s
5
    24 CFR (Code of Federal Regulations) Part 3500, appendix A, instructions for line 201 state that the line is to
    be used for “….any amount paid against the sales price prior to settlement.”

                                                         8
                endorsement. Further, verification documents, such as copies of the
                borrower’s driver’s license and Social Security card, were in the HUD file but
                not in the lender file. Also, regulatory documents, such as the limited denial
                of participation, excluded parties list system, and Credit Alert Interactive
                Voice Response System reports, were in the HUD file but not the lender file.

             For FHA loan 491-9062802, the underwriter did not document an explanation for
             a verification of employment that had obviously been changed using whiteout.
             Also, for FHA loan 491-8985420, the borrower’s bank statements obtained by the
             lender were not included in the assets information listed on the loan application or
             the TOTAL Scorecard report. Paragraph 3 of the Handbook states that the lender
             is responsible for asking sufficient questions to elicit a complete picture of the
             borrower’s financial situation, source of funds for the transaction, and the
             intended use of the property. All information must be verified and documented.
             The lender must also verify and document the identity of the loan applicant(s).

Weststar Appeared to Have
Improved Its Performance

             Following a HUD review in 2007, the Mortgagee Review Board sent Weststar a
             notice of violation listing 11 types of findings that violated HUD FHA
             requirements. In May 2011, HUD’s Quality Assurance Division conducted a
             quality control review of Weststar to ensure that it complied with requirements.
             In its review, HUD questioned 4 of 41 loans reviewed. Weststar provided
             adequate evidence for two of the loans and submitted a signed indemnification
             agreement for the other two loans.

             Based on a comparison of HUD’s 2007 and 2011 reviews of Weststar’s FHA
             mortgage origination activities, practices, and procedures, the lender had
             improved its loan origination performance. We reviewed and confirmed that
             Weststar had updated its policies and procedures as of May 2010. If followed, the
             updated policies and procedures should address the underwriting deficiencies
             identified.
Conclusion

             Weststar did not follow HUD FHA requirements for the 10 loans reviewed. Some
             of the loans contained multiple underwriting deficiencies. This noncompliance
             occurred because Weststar either misunderstood or ignored FHA guidance and
             allowed unqualified persons to sign for the underwriter and loan officer certifying
             that the loans were accurate and properly underwritten. As a result, HUD FHA
             incurred losses of $554,130 in claims on six loans that were ineligible for FHA
             insurance.




                                              9
    Recommendations

                We recommend that the Deputy Assistant Secretary of Single Family Housing
                require Weststar to

                1A. Reimburse FHA $554,130 for losses incurred on six loans that were ineligible
                    for FHA insurance.6

                1B. Correct the data in Neighborhood Watch for FHA loans 492-7865955 and
                    491-9122005.

                1C. Implement procedures to ensure that it enters correct information into
                    Neighborhood Watch.

                1D. Discontinue the practice of allowing employees to sign documents for
                    underwriters and loan officers.




6
     FHA case numbers 491-9062802, 492-8020459, 491-9194756, 491-8985420, 491-8959489, and 492-7767217

                                                   10
                             SCOPE AND METHODOLOGY

We performed our fieldwork between October 18, 2011, and March 6, 2012, at Weststar’s corporate
office in Albuquerque, NM, and our offices in Albuquerque, NM.

To accomplish our objective, we

    •   Reviewed applicable HUD FHA regulations, requirements, and mortgagee letters;
    •   Reviewed FHA’s 2007 and 2011 Quality Assurance Division reviews and the Mortgagee
        Review Board notice of violation and settlement agreement in November 2007 and August
        2008, respectively;
    •   Reviewed a random sample of 10 of the 30 FHA loans that Weststar originated during 2007
        and 2008 that were foreclosed upon and resold between 2007 and 2010;
    •   Reviewed Weststar’s files, quality control plan, and policies and procedures;
    •   Conducted interviews with applicable Weststar staff; and
    •   Reviewed profit and loss data from HUD’s Single Family Data Warehouse system.

We obtained a download of Weststar-originated loans, which had defaulted and on which HUD
FHA had paid claims between January 1, 2009, and June 30, 2011. This download resulted in 58
loans with original loan values totaling more than $6.7 million. HUD’s Quality Assurance Division
had conducted a review of Weststar in 2011, so we compared the 58 loans to the FHA loans
reviewed in 2011 and determined that no duplicate files were selected. We selected a random
sample of 30 loans on which HUD had incurred losses. 7 We narrowed the sample to 10 loans: the
5 loans that were listed as manually underwritten8 and 5 randomly picked loans that had defaulted
before the first payment.

We did not evaluate the reliability of HUD’s Neighborhood Watch system because we were not
auditing the system and used it only to select an auditee and identify which loans to review.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




7
    HUD paid claims, took possession of the properties, and incurred losses upon selling the properties.
8
    The loans were not processed through an automated underwriting system.

                                                        11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

     •   Effectiveness and efficiency of operations,
     •   Reliability of financial reporting, and
     •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal control was relevant to our audit
               objective:

               •   Safeguarding FHA insured mortgages from high-risk exposure.

               We assessed the relevant control identified above.

  Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

               •   Weststar allowed employees to sign documents for an underwriter and a loan
                   officer (finding).




                                                12
                                             APPENDIXES

Appendix A

                       SCHEDULE OF QUESTIONED COSTS


                                   Recommendation                  Ineligible1/
                                       number
                                            1A                        $554,130




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity that the auditor
     believes are not allowable by law; contract; or Federal, State, or local policies or regulations.




                                                        13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         14
15
Comment 1




Comment 2




            16
Comment 3




Comment 3




            17
Comment 3




Comment 3




            18
Comment 4




            19
Comment 4




            20
Comment 4




            21
22
Comment 5




Comment 6




            23
Comment 7




Comment 8




            24
Comment 9




Comment 10




             25
Comment 11




Comment 12




             26
Comment 13




Comment 14




             27
Comment 15




Comment 16




             28
Comment 17




Comment 18




             29
Comment 18




             30
31
                         OIG Evaluation of Auditee Comments

Comment 1   Weststar disagreed with the findings and recommendations. We stand by the
            conclusions reached based on analysis of the loan files and HUD FHA
            requirements.

Comment 2   Weststar was concerned that the report would lead readers to believe that the
            ineligible loans were recently originated. We reviewed the report and determined
            that the loan origination and default time periods were clearly stated. We did not
            change the report based on the comment.

Comment 3   Weststar disagreed that it did not properly assess or document the borrowers'
            income for three loans. Weststar provided 13 exhibits in support of its position.
            We reviewed the documents and determined that we had considered them during
            the audit and that they did not refute the finding.

Comment 4   Weststar contended that it complied with FHA guidelines when it analyzed and
            approved borrower credit in four loans questioned in the audit report. Weststar
            further contended that the loan files contained the required documentation and
            that it prudently exercised the discretion granted it by FHA. Weststar provided
            six exhibits in support of it position. We reviewed the documents and determined
            that they did not refute the finding. We did not change the report based on this
            comment.

            Weststar stated that it complied with desktop underwriting requirements for three
            of the four questioned loans when it obtained the documentation indicated in the
            verification messages provided in the Underwriter Findings Reports. However,
            Weststar should not have processed the three loans using desktop underwriting.
            The loans were not qualified for desktop underwriting because they included a tax
            lien or consumer disputed items on credit reports that Weststar did not properly
            address.

Comment 5   Weststar stated that it endeavored to construct a case binder for submission to
            HUD that reflected the correct final loan documentation that HUD required, as
            well as retain a complete copy of the case binder documents that it submitted to
            HUD. Weststar admitted that in some instances, a non-final document was
            unintentionally included in the HUD case binder or a copy of the final document
            included in the case binder was not retained in Weststar's loan file. However,
            Weststar asserted that it was confident that it had improved its complilation and
            submission process and had resolved any concerns identified in the loan files
            reviewed in the audit and that any issues related to compiling case binders would
            not recur.

            The OIG found many differences between the documents in Weststar's case files
            and the documents that Weststar submitted to HUD. In some cases, the
            differences may have been material. Further, all the case binders that Weststar

                                            32
              submitted to HUD were incomplete because they did not contain the final loan
              documentation. We did not review any loans that Weststar originated after 2008
              to confirm whether its revised procedures resulted in complete files, and we did
              not change the report based on this comment.

Comment 6     Weststar agreed that in two cases employees were out of the office and the
              employees allowed other employees to sign documents on their behalf. Weststar
              denied that it allowed employees to sign for other employees when they were "in
              a hurry," and denied that the issue was a control weakness. As the report states, in
              6 of the 10 files reviewed, employees signed documents for other employees.
              Further, when questioned about the practice, one employee admitted that Weststar
              was aware of it. Therefore, we do not believe that these were isolated instances or
              that Weststar did not at least implicitly allow employees to sign for other
              employees.

              Further, Weststar stated that it had implemented procedures to prohibit employees
              from signing documents on behalf of other employees under any circumstance
              and require each individual employee to only sign his or her own name. We did
              not test any loans after the implementation; thus, we did not evaluate the
              implementation or the effectiveness of the procedures, and we did not change the
              report based on the comment.

Comment 7     Weststar stated that it retained the required gift documentation for FHA Case
              Number 492-7767217 and provided a copy of the gift letter in its response. We
              reviewed the gift letter and determined that we had not seen it during the audit. It
              was not in the HUD file, and according to a Weststar representative during the
              audit, it was not in the lender's file. Further, there was a $978 discrepancy
              between the gift fund amount on the HUD-1 settlement statement and the
              Mortgage Credit Analysis Worksheet. Therefore, we are uncertain of the
              authenticity of the gift letter and did not change the report based on the comment
              and the submitted document.

Comment 8     Weststar admitted that it may have inadvertently omitted some of the gift letter
              documentation for FHA Case Number 491-8985420 but believed the oversight
              was a harmless error. We did not change the report based on the comment.

Comment 9     Weststar admitted that the income documents may have been transmitted through
              the builder's fax machine but said that it was common for borrowers to use a
              builder's fax machine and believed that this was, at worst, a harmless error. We
              did not change the report based on the comment.

Comment 10 Weststar did not dispute that a verification of the employment had been altered
           with whiteout but said it had no reason to question the validity of the document
           because it said it received the verification of the employment directly from the
           employer. We disagree because the underwriter should have required an



                                               33
              explanation and documented the results. We did not change the report based on
              the comment.

Comment 11 Weststar asserted that a HUD requirement to itemize the sales contract to reflect
           delivery and installation costs was not effective until after Weststar originated the
           loan. We agreed and made appropriate changes to the report.

Comment 12 Weststar asserted that there can be numerous submissions to TOTAL Scorecard
           because there are many variables that can change prior to underwriting and
           closing, such as property improvements, property location, floor plan, and
           construction upgrades. Weststar further asserted that the number of submissions
           to the automated underwriting system does not in and of itself evidence any
           violation of HUD guidelines. We noted that there was no explanation for the
           number of submissions in the file, and no reason to believe that property
           improvements, location, floor plan, and construction upgrades should have
           changed 37 times. The number of submissions was excessive and unexplained.
           We did not change the report based on the comment.

Comment 13 Weststar admitted that it submitted inaccurate information to Neighborhood
           Watch for two cases. Weststar said that it has contacted HUD to correct the data
           and amended its procedures to ensure accurate reporting in FHA Connection and
           was confident that the issue will not recur. We did not review the corrected data
           or the amended procedures and do not have an opinion on whether the new
           procedures are effective. We did not change the report based on the comment.

Comment 14 Weststar maintained that it adhered to HUD requirements to verify the borrower's
           source of funds to open a checking account for FHA Case Number 492-8020459.
           Weststar further maintained that it complied with HUD requirements to obtain a
           explanation for a discrepancy in the borrower's housing. Weststar provided six
           exhibits that it said proved its point. We reviewed the documents and determined
           that we had considered them during the audit and that they did not refute the
           finding.

Comment 15 Weststar asserted that the borrower in FHA Case Number 492-8020459 paid $500
           outside closing to cover the cost of the appraisal but that the payment was
           erroneously recorded as earnest money. Weststar did not provide any evidence to
           support this assertion, and we did not change the report based on the comment.

Comment 16 Weststar contended that it complied with HUD guidelines and properly
           documented the borrower's banking information and provided three exhibits that
           it said proved its point. We reviewed the documents and determined that we had
           considered them during the audit and that they did not refute the finding.

Comment 17 Weststar objected to our conclusion that it either ignored or misunderstood the
           regulations and stated the conclusion was not supported by information in the
           other sections of the report. We stand by our conclusion based on the facts

                                               34
              presented in the report that show that 6 of the 10 loans reviewed were ineligible
              for FHA insurance due to various violations. We did not change our conclusion.

Comment 18 Weststar stated that the allegations in the report were recommendations to HUD
           instead of a final action. Weststar suggested the OIG include a disclosure
           statement in the report indicating that the recommendations were not a final
           action. As part of the audit resolution processs, we will work with HUD to reach
           agreement on the actions that it will take to resolve the recommendations, which
           may or may not include indemnification of loans. However, based on our
           assessment of the loans, the recommendations are appropriate; thus, we did not
           change them. Further, the suggested disclosure will not be included in the report
           because it is unnecessary.




                                              35
Appendix C

                                       CASE NARRATIVES

                      Case Narrative – Loan Number 491-9062802

Mortgage amount: $110,695
Date of loan closing: December 4, 2007
Status as of September 30, 2011: Claims paid 9 totaling $119,670
Payments before first default: Four
HUD loss: $72,887

Underwriting deficiencies:
   • The lender did not process the loan correctly
   • Borrower income was calculated incorrectly
   • The verification of employment had evidence of alteration
   • There was no explanation of derogatory credit items
   • TOTAL Scorecard red flagged the number of loan submissions
   • The HUD case binder was not identical to the lender file

Summary:

The Lender Did Not Process the Loan Correctly
The borrower had delinquent property taxes that did not appear on the credit report. FHA
requires 10 the lender to downgrade the loan to a refer and manually underwrite it if derogatory or
delinquent credit items are revealed during processing that are not reflected on the credit report.
Weststar did not manually underwrite this loan as required by the TOTAL Scorecard manual.
Weststar included payment of the delinquent property taxes in the borrower’s closing costs; thus,
Weststar was aware of the delinquency.

Borrower Income Was Calculated Incorrectly
Weststar erroneously included overtime from the current employer in the borrower’s income
calculation. According to HUD Handbook 4155.1, REV-5, paragraph 1.B.2.f, TOTAL
Scorecard approval requires the lender use base pay only (no overtime or bonus pay) to qualify
the borrower. Weststar calculated income based on 10 months of overtime. If Weststar had
manually underwritten this loan as it should have, it would have had to document and explain
compensating factors associated with exceeding HUD’s underwriting ratios. Without the
overtime included, the front end ratio was 43 percent and the back end ratio was 61 percent, both


9
     The lender presents a claim to HUD for payment after the foreclosure sale.
10
     FHA’s TOTAL Mortgage Scorecard User Guide, page 17

                                                        36
of which exceeded HUD’s manual underwriting ratio standards of 31 and 43 percent, 11
respectively.

The Verification of Employment Had Evidence of Alteration
The underwriter did not include evidence that he had resolved a questionable document. The
verification of employment form had been altered with whiteout on the gross earnings and
overtime and replaced with information that matched the paycheck stub submitted. According to
Weststar, the underwriter had no reason to question the information reflected on the document as
it was received directly from the employer.

There Was No Explanation of Derogatory Credit Items
The borrower did not explain or provide documentation on 14 collection accounts found on the
credit report. FHA regulations 12 state that the borrower must explain, in writing, all collections
and judgments.

TOTAL Scorecard Red Flagged the Number of Loan Submissions
The TOTAL Scorecard report noted a potential red flag as there was an unusually high number
of loan submissions through the automated underwriting system. The loan was submitted
through TOTAL Scorecard a total of 37 times with no documented explanation for the number of
submissions. Weststar stated that often a TOTAL Scorecard report is run to determine eligibility
based upon various financial scenarios that are of interest to the borrower, such as paying off
credit cards or consolidating debt.

The HUD Case Binder Was Not Identical to the Lender File
Weststar submitted to HUD several documents that differed from those in its own file. The
documents included an automated underwriting report, mortgage credit analysis worksheet, and
good faith estimate. Some of the documents contained significant differences in the amounts
reported. FHA regulations 13 state that lenders must prepare and submit a uniform case binder to
HUD. According to Weststar, it was possible that in some instances, a non-final document was
unintentionally included in the HUD case binder.




11
     HUD Handbook 4155.1, REV-5, paragraph 4.F.2.a
12
     HUD Handbook 4155.1, REV-5, paragraph 4.C.2.d
13
     HUD Handbook 4155.2, paragraph 8.B.1.d

                                                     37
                      Case Narrative – Loan Number 492-8020459

Mortgage amount: $102,464
Date of loan closing: August 14, 2008
Status as of September 30, 2011: Claims paid totaling $109,452
Payments before first default: One
HUD loss: $80,472

Underwriting deficiencies:
   • Earnest money was not on the settlement statement
   • There was no explanation of derogatory credit items
   • The lender did not document the source of funds
   • Income documentation was not consistent
   • The housing obligation requirement was not met
   • The HUD case binder was not identical to the lender file

Summary:

Earnest Money Was Not on the Settlement Statement
The loan file contained evidence that the borrower paid $500 in earnest cash to the seller before
the loan closing. The document was signed by the borrower and seller, but the settlement
statement did not show the earnest money payment. The Real Estate Settlement Procedures Act14
requires any money paid against the sales price before settlement to be included on the
settlement statement. According to Weststar, the earnest money was paid by the borrower to the
seller and was not considered as part of the loan transaction.

There Was No Explanation of Derogatory Credit Items
The borrower did not explain or provide documentation for collection accounts found on the
credit report. FHA requires 15 that the borrower explain, in writing, all collections and
judgments. Weststar obtained a credit explanation letter from the borrower for a previous
mortgage but did not obtain an explanation for the collection accounts found on the credit report.
One collection amount increased during the collection process.

The Lender Did Not Document the Source of Funds
Weststar did not obtain documentation to support where the borrower’s payroll checks were
direct deposited before the borrower opened a checking account. On the advice of Weststar, the
borrower opened an account with funds noted as retirement money, but there was no
documentation to support where the funds came from. FHA regulations 16 allow a verification of
deposit, along with the borrower’s most recent bank statement, to be used to verify savings and
checking accounts, but if there is a large increase in an account or the account was recently
14
     24 CFR Part 3500, appendix A, instructions for line 201
15
     HUD Handbook 4155.1, REV-5, paragraph 4.C.2.d
16
     HUD Handbook 4155.1, REV-5, paragraph 5.B.2.b

                                                        38
opened, the lender must obtain from the borrower a credible explanation and documentation of
the source of funds.

Income Documentation Was Inconsistent
The borrower submitted two paycheck stubs, one of which did not contain employer information
or a check number. FHA requirements 17 state that income, employment, or asset documents sent
to the lender by fax must clearly identify the name of the employer and the source of
information. According to Weststar, one paycheck stub was copied and one was faxed, which
may have accounted for the missing information; however, we found copies of both paycheck
stubs, and the employer information was still missing on one.

The Housing Obligation Requirement Was Not Met
According to the borrower, he had lived for the past 4 years in a manufactured home, the last 2
of which was on his father-in-law’s property. According to his loan application, he had been
renting an apartment for the past 3 years. FHA requirements 18 state that the lender must
determine the borrower’s housing obligation payment history through verification of rent
received directly from the landlord or a review of canceled checks that cover the most recent 12-
month period. The lender must verify and document the housing history even if the borrower
states that he or she was living rent free. Weststar did not document or resolve the inconsistency
between the loan application and the borrower statement regarding housing obligation.

The HUD Case Binder Was Not Identical to the Lender File
Weststar submitted to HUD several documents that differed from those in its own file. The
documents included a mortgage credit analysis worksheet, good faith estimate, and gift letter.
The HUD case binder also contained verification documents, such as the limited denial of
participation, excluded parties list system, and Credit Alert Interactive Voices Response System
report, that were not in the lender file. FHA regulations 19 state that lenders must prepare and
submit a uniform case binder to the appropriate Homeownership Center. According to Weststar,
it was possible that in some instances, a non-final document was unintentionally included in the
HUD case binder.




17
     HUD Handbook 4155.1, REV-5, paragraph 1.B.1.i
18
     HUD Handbook 4155.1, REV-5, paragraph 4.C.2.b
19
     HUD Handbook 4155.2, paragraph 8.B.1.d

                                                     39
                    Case Narrative – Loan Number 491-9194756

Mortgage amount: $145,626
Date of loan closing: May 23, 2008
Status as of September 30, 2011: Claims paid totaling $150,067
Payments before first default: Three
HUD loss: $145,626

Underwriting deficiencies:
   • Borrower income was calculated incorrectly
   • The loan application was not completed correctly
   • The HUD case binder was not identical to the lender file

Summary:

Borrower Income Was Calculated Incorrectly
Weststar erroneously included overtime from the current employer in the income calculation.
According to HUD Handbook 4155.1, REV-5, paragraph 1.B.2.f, TOTAL Scorecard approval
requires that the lender use base pay only (no overtime or bonus pay) to qualify the borrower.
Weststar used overtime the borrower received in 2008 in its calculation. If Weststar had
manually underwritten this loan, it would have had to document and explain compensating
factors associated with exceeding HUD’s underwriting ratios. For this loan without the overtime
included, the back end ratio totaled 60 percent, which exceeded HUD's manual underwriting
ratio standard of 43 percent. 20

The Loan Application Was Not Completed Correctly
The borrower listed source of downpayment on the loan application as equity in land; however,
the sales contract showed the borrower purchasing the land from the manufactured home dealer.
FHA regulations 21 state that the underwriter’s responsibility includes certifying that the uniform
residential loan application and addendum were personally reviewed and all application
documents are in compliance. According to Weststar, the downpayment did not come from
equity in the real property but was obtained through downpayment assistance. The loan
application contained a certification signed by the underwriter, stating that to the best of the
lender’s knowledge, the statements in the application were true and correct.

The HUD Case Binder Was Not Identical to the Lender File
Weststar submitted to HUD two documents that differed from those in its own file. The
documents included a different mortgage credit analysis worksheet and good faith estimate.
Some of the documents contained significant differences in the amounts reported. In addition,
the HUD case binder did not contain the gift letter documentation showing that downpayment

20
     HUD Handbook 4155.1, REV-5, paragraph 4.F.2.a
21
     HUD Handbook 4155.2, paragraph 2.A.4.b

                                                     40
assistance was received. FHA regulations 22 state that lenders must prepare and submit a uniform
case binder to the appropriate Homeownership Center. According to Weststar, it was possible
that in some instances, a non-final document was unintentionally included in the HUD case
binder.




22
     HUD Handbook 4155.2, paragraph 8.B.1.d

                                              41
                    Case Narrative – Loan Number 491-8985420

Mortgage amount: $121,677
Date of loan closing: October 22, 2007
Status as of September 30, 2011: Claims paid totaling $130,101
Payments before first default: Four
HUD loss: $103,752

Underwriting deficiencies:
   • The borrower’s credit report contained disputed items
   • There was no explanation of derogatory credit items
   • The gift funds transfer was not documented by the lender
   • Borrower financial information was not used
   • The lender submitted an invalid loan application to HUD
   • The HUD case binder was not identical to the lender file

Summary:

The Borrower’s Credit Report Contained Disputed Items
The borrower’s revised credit report, dated October 19, 2007, contained five disputed items.
FHA requirements, dated December 2004, 23 state that any credit report containing disputed items
must be manually underwritten. According to Weststar, the loan was not referred for manual
underwriting because the FHA requirements were not implemented until “this past year”
(calendar year 2011) and the loan was underwritten in 2007. This statement showed that
Weststar did not know the HUD FHA and TOTAL Scorecard regulations, and Weststar did not
manually underwrite this loan as required by the TOTAL Scorecard manual.

There Was No Explanation of Derogatory Credit Items
The borrower did not explain or provide documentation for 12 derogatory items found on the
credit report. FHA regulations 24 state that major indications of derogatory credit, such as
judgments, collections, and other recent credit problems, require written explanation from the
borrower. In addition, significant compensating factors are required if the borrower had recent
financial difficulty and had not maintained a good payment record. This loan was processed
through TOTAL Scorecard. If Weststar had manually underwritten this loan, it would have had
to document borrower explanations and significant compensating factors.

The Gift Funds Transfer Was Not Documented by the Lender
The Weststar file did not contain the gift funds wire transfer documentation. FHA
requirements 25 state that the lender must document the transfer of gift funds from the donor to

23
     FHA’s TOTAL Mortgage Scorecard User Guide, page 21
24
     HUD Handbook 4155.1, REV-5, paragraph 4.C.1.c
25
     HUD Handbook 4155.1, REV-5, paragraph 5.B.5.b

                                                  42
the borrower and the documentation is to be kept in the mortgage loan binder. Weststar did not
document the transfer of the gift funds as required by FHA.

Borrower Financial Information Was Not Used
Weststar did not use the borrower’s banking information when qualifying the loan. FHA
regulations 26 state that the lender must obtain and verify the borrower’s information to get a
complete picture of the borrower’s financial position and source of funds for the mortgage
transaction. The borrower’s banking information was not included in the asset information listed
on the loan application. The loan application contained a certification signed by the underwriter,
stating that to the best of the lender’s knowledge, the statements in the application were true and
correct.

The Lender Submitted an Invalid Loan Application to HUD
The final loan application submitted in HUD’s case file contained a signature page that appeared
to have been copied, and the details of transaction amounts appeared to have been changed.
FHA requirements 27 state that the underwriter’s responsibility includes certifying that the loan
application and addendum are reviewed and all application documents are in compliance.
According to Weststar, the signature page attached to the final application in its file reflected the
correct and accurate information, and it was unable to determine why a second signature page
was in the file. The loan application was certified by the underwriter as a representative of the
lender that the data supplied were true and correct.

The HUD Case Binder Was Not Identical to the Lender File
Weststar submitted to HUD several documents that differed from those in its own file. The
documents included a good faith estimate, sales contract, and loan application. The sales
contract submitted to HUD did not contain any signatures and was missing information related to
seller-required repairs after closing. FHA regulations 28 state that lenders must prepare and
submit a uniform case binder to the appropriate Homeownership Center. According to Weststar,
it was possible that in some instances, a non-final document was unintentionally included in the
HUD case binder.




26
     HUD Handbook 4155.1, REV-5, paragraph 1.A.4.c
27
     HUD Handbook 4155.2, paragraph 2.A.4.b
28
     HUD Handbook 4155.2, paragraph 8.B.1.d

                                                     43
                    Case Narrative – Loan Number 491-8959489

Mortgage amount: $64,877
Date of loan closing: May 2, 2007
Status as of September 30, 2011: Claims paid totaling $75,532
Payments before first default: One
HUD loss: $61,272

Underwriting deficiencies:
   • Documents were handled by a third party.
   • An unqualified person certified documents
   • The HUD case binder was not identical to the lender file

Summary:

Documents Were Handled by a Third Party
Weststar accepted and used documents relating to employment and income of the borrowers that
were handled and transmitted through fax by interested third parties, such as the builder. FHA
regulations state that lenders may not accept or use documents relating to the credit,
employment, or income of borrowers that have been handled by or transmitted from or through
the equipment of interested third parties, such as real estate agents, builders, or sellers. 29

An Unqualified Person Certified Documents
The file contained obvious differences in signature styles on the initial and final uniform
residential loan applications with no explanatory statements. FHA requirements state that the
underwriter’s signature on this form certifies that he or she has personally reviewed all
application documents and finds compliance with the applicable documents and must be attuned
to the warning signs that may indicate any irregularities. 30

Weststar acknowledged the signature differences and said that it consented and instructed an
employee of Weststar to sign certified documents when the underwriter and the loan officer were
out of the office.

The Borrower’s Final Application Was Missing
Both HUD’s and lender’s case binders were missing the borrower’s final application. FHA
requires the lender to provide a complete picture of the borrower’s financial position and source
of funds for the mortgage transaction.




29
     HUD Handbook 4155.1, REV-5, paragraph 1.B.1.f
30
     HUD Handbook 4155.2, paragraph 2.A.4.b

                                                     44
                    Case Narrative – Loan Number 492-7767217

Mortgage amount: $119,892
Date of loan closing: March 30, 2007
Status as of September 30, 2011: Claims paid totaling $127,159
Payments before first default: 12
HUD loss: $90,121

Underwriting deficiencies:
   • An unqualified person certified documents
   • The HUD case binder was not identical to the lender file
   • A gift letter was missing

Summary:

An Unqualified Person Certified Documents
The file contained obvious differences in signature styles on the initial and final uniform
residential loan application with no explanatory statements. FHA requirements state that the
underwriter’s signature on this form certifies that he or she has personally reviewed all
application documents and finds compliance with the applicable documents and must be attuned
to the warning signs that may indicate any irregularities. 31

Weststar acknowledged the signature differences and said that it consented and instructed an
employee of Weststar to sign certified documents when the underwriter and the loan officer were
out of the office.

The HUD Case Binder Was Not Identical to the Lender File
Weststar submitted to HUD two documents that differed from those in its own file. The
documents included a mortgage credit analysis worksheet and good faith estimate. FHA
regulations state that lenders must prepare and submit a uniform case binder to the appropriate
Homeownership Center. 32 According to Weststar, it was possible that in some instances, a non-
final document was unintentionally included in the HUD case binder.

A Gift Letter Was Missing
The Weststar file did not contain gift letter documentation. FHA requires the lender to document
any gift funds through a gift letter, and the documentation is to be kept in the mortgage loan
binder. 33



31
     HUD Handbook 4155.2, paragraph 2.A.4.b
32
     HUD Handbook 4155.2, paragraph 8.B.1.d
33
     HUD Handbook 4155.1, REV-5, paragraph 5.B.5.a

                                                     45
